      DEPARTMENT OF HEALTH & HUMAN SERVICES                               Office of Inspector General

                                                                           Washington, D.C. 20201




January 20, 2011

TO:            David Hansell
               Acting Assistant Secretary
               Administration for Children and Families


FROM:          /Daniel R. Levinson/
               Inspector General


SUBJECT:       Review of Ohio Department of Job and Family Services Claims for Costs
               Reported by the Hamilton County Department of Job and Family Services
               (A-05-08-00098)


Attached, for your information, is an advance copy of our final report on Ohio Department of Job
and Family Services Claims for Costs Reported by the Hamilton County Department of Job and
Family Services. We will issue this report to the Ohio Department of Job and Family Services
within 5 business days. The Administration for Children and Families requested that we conduct
this audit.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Lori S. Pilcher, Assistant Inspector General for Grants, Internal Activities,
and Information Technology Audits, at (202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov
or James C. Cox, Regional Inspector General for Audit Services, Region V, at (312) 353-2621 or
through email at James.Cox@oig.hhs.gov. Please refer to report number A-05-08-00098.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region V
                                                                          233 North Michigan Avenue
                                                                          Suite 1360
                                                                          Chicago, IL 60601
January 24, 2011

Report Number: A-05-08-00098

Mr. Michael B. Colbert
Interim Director
Ohio Department of Job and Family Services
30 East Broad Street, 32nd Floor
Columbus, OH 43215-3414

Dear Mr. Colbert:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector General
(OIG), final report entitled Review of Ohio Department of Job and Family Services Claims for Costs
Reported by the Hamilton County Department of Job and Family Services. We will forward a copy of
this report to the HHS action official noted on the following page for review and any action deemed
necessary.

The HHS action official will make final determination as to actions taken on all matters reported. We
request that you respond to this official within 30 days from the date of this letter. Your response
should present any comments or additional information that you believe may have a bearing on the
final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly available
reports on the OIG Web site. Accordingly, this report will be posted at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or contact
Mike Barton, Audit Manager, at (614) 469-2543 or through email at Mike.Barton@oig.hhs.gov.
Please refer to report number A-05-08-00098 in all correspondence.

                                             Sincerely,



                                             /James C. Cox/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Michael B. Colbert


Direct Reply to HHS Action Official:

Mr. Kent Wilcox
Regional Administrator
Administration for Children and Families
U.S. Department of Health & Human Services
233 North Michigan Avenue, Suite 400
Chicago, IL 60601-5519
  Department of Health & Human Services
             OFFICE OF
        INSPECTOR GENERAL




REVIEW OF OHIO DEPARTMENT OF JOB
       AND FAMILY SERVICES
CLAIMS FOR COSTS REPORTED BY THE
 HAMILTON COUNTY DEPARTMENT OF
     JOB AND FAMILY SERVICES




                        Daniel R. Levinson
                         Inspector General

                          January 2011
                          A-05-08-00098
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                            Notices


       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that
OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable,
a recommendation for the disallowance of costs incurred or claimed,
and any other conclusions and recommendations in this report represent
the findings and opinions of OAS. Authorized officials of the HHS
operating divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Within the U.S. Department of Health & Human Services, the Administration for Children and
Families (ACF) provides funding to State, territorial, local, and tribal organizations for programs
relating to children and families.

In Ohio, the Department of Job and Family Services (State agency) administers ACF programs
and other Federal and State programs related to health care, cash assistance, food assistance,
childcare, child support enforcement and administration, foster care, and employment and
training assistance. County agencies coordinate and provide these services to eligible children
and families and report costs to the State agency. The State agency then claims these costs for
Federal reimbursement.

On May 1, 2008, the State agency issued a report entitled Hamilton County Limited Review
(State agency’s report) related to costs reported by the Hamilton County Department of Job and
Family Services (County agency). The State agency’s report found that the County agency did
not properly account for Federal, State, and local funds and recommended that the State recover
$216 million. However, the State agency’s report did not clearly identify what portion of the
costs recommended for recovery pertained to ACF programs. Therefore, ACF requested that we
conduct this audit. We limited our audit to $203 million claimed for services provided by certain
child welfare organizations under agreements with the County agency primarily from July 1,
2001, through June 30, 2004.

OBJECTIVE

Our objective was to determine the ACF portion of unallowable costs identified in the State
agency’s report.

SUMMARY OF FINDING

The ACF portion of the $203 million in unallowable costs identified in the State agency’s report
for services provided by the child welfare organizations during our audit period totaled
$58,987,755 (Federal share). The County agency inappropriately allocated the child welfare
organizations’ costs through indirect cost pools. The State agency inappropriately claimed the
costs because it relied on the County agency’s reported program costs and did not ensure that the
County agency allocated the costs in accordance with the cost allocation plan and other Federal
requirements.




                                                 i
RECOMMENDATIONS

We recommend that the State agency:

   •   refund $58,987,755 to the Federal Government for County agency costs inappropriately
       claimed through the cost pools and

    • ensure that the County agency appropriately allocates and reports allowable costs in
      accordance with the cost allocation plan and other Federal requirements.

AUDITEE COMMENTS

In written comments on our draft report, the State agency generally concurred with the findings
and recommendations. However, the State agency requested the right to negotiate the actual
amount due to the Federal Government through the resolution process with ACF and other
parties as needed. The State agency comments are included in their entirety in the Appendix to
the report.




                                               ii
                                                    TABLE OF CONTENTS

                                                                                                                                 Page

INTRODUCTION..............................................................................................................1

     BACKGROUND ...........................................................................................................1
       Ohio’s Administration of Programs for Children and Families...............................1
       County Agency Child Welfare Service Costs ..........................................................1

     OBJECTIVE, SCOPE, AND METHODOLOGY .........................................................2
       Objective ..................................................................................................................2
       Scope ........................................................................................................................2
       Methodology ............................................................................................................2

FINDING AND RECOMMENDATIONS .......................................................................3

     UNALLOWABLE COSTS CLAIMED ........................................................................3

     IMPROPER ALLOCATION OF COSTS .....................................................................4
        Federal Requirements ..............................................................................................4
        County Agency’s Improper Allocation of Costs .....................................................5
        State Agency’s Reliance on County Agency’s Reported Costs...............................5

     RECOMMENDATIONS ...............................................................................................5

     AUDITEE COMMENTS...............................................................................................5

APPENDIX

          AUDITEE COMMENTS




                                                                      iii
                                               INTRODUCTION

BACKGROUND

Within the U.S. Department of Health & Human Services (HHS), the Administration for
Children and Families (ACF) provides funding to State, territorial, local, and tribal organizations
for programs relating to children and families. State, county, city, and tribal governments and
private local agencies provide services to eligible children and families.

Ohio’s Administration of Programs for Children and Families

In Ohio, the Department of Job and Family Services (State agency) administers ACF programs
and other Federal and State programs related to health care, cash assistance, food assistance,
childcare, child support enforcement and administration, foster care, and employment and
training assistance. County agencies coordinate and provide these services to eligible children
and families and report costs to the State agency. The State agency then claims these costs for
Federal reimbursement.

On May 1, 2008, the State agency issued a report entitled Hamilton County Limited Review
(State agency’s report) related to costs reported by the Hamilton County Department of Job and
Family Services (County agency). The State agency’s report found that the County agency did
not properly account for Federal, State, and local funds and recommended that the State recover
$216 million. However, the State agency’s report did not clearly identify what portion of the
costs recommended for recovery pertained to ACF programs. Therefore, ACF requested that we
conduct this audit.

County Agency Child Welfare Service Costs

During our audit period, the County agency charged costs to the State agency for services
provided by certain child welfare organizations:

       •    Under the auspices of the Multi-County System Agency, a consortium of county
            governmental entities, the County agency contracted for consecutive periods with Beech
            Acres and then with Hamilton Choices, LLC (collectively, BA/HC), to provide treatment
            and care for high-risk foster care children.

       •    The County agency contracted with Magellan Behavioral Health (Magellan) to
            coordinate and administer the delivery of child welfare and mental health services to
            children and families.

       •    Hillcrest Training School and Youth Center (Hillcrest), a county-operated, accredited
            community correctional/treatment center and training school for youth offenders,
            provided rehabilitative services to adjudicated youths (non-foster-care children) who
            were placed there by the Hamilton County Juvenile Court. 1

1
    No written agreement between Hillcrest and the County agency appears to exist.



                                                          1
The County agency charged the child welfare organizations’ costs to indirect cost pools and
allocated the costs, in part, to ACF programs. The County agency also allocated costs from the
cost pools to the Medicaid program and to non-HHS and State programs.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine the ACF portion of unallowable costs identified in the State
agency’s report.

Scope

We reviewed $203 million of the $216 million that the State agency’s report had recommended
for recovery. The $203 million related to services provided by the child welfare organizations
primarily from July 1, 2001, through June 30, 2004. 2 After removing duplicated costs and
identifying adjustments, we relied on the State agency’s Office of Fiscal Services to calculate the
Federal share of nonduplicated, adjusted costs claimed to all Federal programs.

We did not assess the overall internal controls for claiming costs for Federal reimbursement. We
limited our review of internal controls to gaining an understanding of the County agency’s
procedures for reporting ACF-related costs to the State agency and the State agency’s procedures
for claiming Federal reimbursement. We conducted our fieldwork at the State agency in
Columbus, Ohio.

Methodology

To accomplish our objective, we:

    •   reviewed applicable Federal laws and regulations and the State agency’s approved cost
        allocation plan;

    •   interviewed State agency officials and the County agency’s contracted auditors to obtain
        an understanding of the audit work performed and findings identified in the State
        agency’s report;

    •   reviewed the State agency’s report and related working papers and supporting
        documentation;

    •   identified the duplicated costs recommended for recovery and the State agency’s
        adjustments to the costs recommended for recovery;



2
 Although the State agency’s report covered Hillcrest costs for the period beginning January 11, 2000, we reviewed
Hillcrest costs only for the period July 1, 2000, through June 30, 2004.


                                                        2
   •   determined the ACF portion of nonduplicated, adjusted costs recommended for recovery;
       and

   •   interviewed State agency and County agency officials about the processing and reporting
       of County agency expenditures.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                          FINDING AND RECOMMENDATIONS

The ACF portion of the $203 million in unallowable costs identified in the State agency’s report
for services provided by the child welfare organizations during our audit period totaled
$58,987,755 (Federal share). The County agency inappropriately allocated the child welfare
organizations’ costs through indirect cost pools. The State agency inappropriately claimed the
costs because it relied on the County agency’s reported program costs and did not ensure that the
County agency allocated the costs in accordance with the cost allocation plan and other Federal
requirements.

UNALLOWABLE COSTS CLAIMED

The ACF portion of unallowable costs identified in the State agency’s report and related to
services provided by the child welfare organizations was $58,987,755 (Federal share). The table
on the following page shows, by organization, the Federal share of costs that the State agency
inappropriately claimed to ACF programs.




                                                3
                  Federal Share of Costs Inappropriately Claimed to ACF Programs

                       ACF Program                              BA/HC        Magellan      Hillcrest         Total
    Block Grants to States for Temporary Assistance for
    Needy Families (Title IV-A)                              $5,024,570     $12,390,434    $7,516,153      $24,931,157

    Child and Family Services (Title IV-B)                       142,864       145,981       447,114          735,959
    Adoption and Foster Care Analysis and Reporting
    System (Title IV-B/IV-E)                                            0            0                 0             0
    Child Support and Establishment of Paternity
    (Title IV-D)                                                     523             0      2,885,961        2,886,484

    Foster Care and Adoption Assistance (Title IV-E)            6,624,840    11,946,815     6,230,819       24,802,474
    Block Grants to States for Social Services (Title XX)       1,184,991     2,007,562      268,500         3,461,053

    Child Care and Development Block Grant                       631,835      1,151,752      387,041         2,170,628

     Total                                                  $13,609,623     $27,642,544   $17,735,588      $58,987,755

IMPROPER ALLOCATION OF COSTS

Federal Requirements

Pursuant to Federal regulations (45 CFR part 95, subpart E), States must allocate costs to public
assistance programs in accordance with cost allocation plans approved by HHS’s Division of
Cost Allocation. Office of Management and Budget Circular A-87 specifies that all direct and
indirect administrative costs should normally be charged to Federal awards through procedures
described in a State’s cost allocation plan (2 CFR part 225, Appendix D, section A).

Ohio’s approved cost allocation plan (the plan) for State fiscal years 2001 through 2004 (July 1,
2000, through June 30, 2004) addresses both State and local costs. Section V-B-1 of the plan
states that county expenditures reported as direct costs are chargeable solely to the applicable
State or Federal program and may not be included in any cost pool. For example, the plan
defines “direct child welfare costs” as contract costs, purchased services, and maintenance costs
that can be identified with a specific child welfare program.

The plan provides guidance for charging costs that benefit more than one federally funded
program. Sections V-B-2 through V-B-4 of the plan describe separate cost pools, each of which
represents a different program area that benefits multiple HHS programs. Indirect costs located
within the specific program area should be reported to the specific cost pool and allocated to the
benefiting local, State, and/or Federal programs based on the results of a random moment
timestudy. 3 Section V-B-5 of the plan states that shared costs are indirect costs that are incurred
for a common purpose, that benefit more than one major function, and that are not readily
assignable to any specific cost center.


3
 A random moment timestudy is a statistically valid method used to determine the percent of effort expended by
employees performing functions on behalf of any variety of specific programs and activities.


                                                            4
County Agency’s Improper Allocation of Costs

Contrary to the State agency’s approved cost allocation plan, the County agency allocated the
child welfare organizations’ costs through indirect cost pools. The child welfare organizations
incurred and claimed to the County agency a variety of types of costs, including costs for the
provision of direct services. However, the County agency made no effort to determine which
costs should be charged directly to ACF programs and which costs should be allocated through
the indirect cost pools because they benefited multiple programs.

State Agency’s Reliance on County Agency’s Reported Costs

The State agency claimed unallowable child welfare service costs because it relied on the County
agency’s reported program costs and did not ensure that the County agency allocated the costs in
accordance with the cost allocation plan and other Federal requirements. Pursuant to the grant
award, the State agency is the grantee and is accountable to the Federal Government for the use
of funds provided. Furthermore, the State agency is responsible for monitoring its grantees to
ensure compliance with applicable Federal requirements (45 CFR § 92.40(a)).

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $58,987,755 to the Federal Government for County agency costs inappropriately
       claimed through the cost pools and

    • ensure that the County agency appropriately allocates and reports allowable costs in
      accordance with the cost allocation plan and other Federal requirements.

AUDITEE COMMENTS

In written comments on our draft report, the State agency generally concurred with the findings
and recommendations. However, the State agency requested the right to negotiate the actual
amount due to the Federal Government through the resolution process with ACF and other
parties as needed. The State agency’s comments are included in their entirety in the Appendix to
the report.




                                                5
APPENDIX
                                                                                                Page 1 0[2


                   APPENDIX: AUDITEE COMMENTS 



             Department of
Ohio         Job and Family Services

             Ted Strickland, Governor
             Dougl•• E. Lumpkin. Director
  November 19,2010

  Mr. James Cox, Regional Inspector General for Audit Services 

  Office of Audit Services Region V 

  233 North Michigan Ave 

  Suite 1360 

  Chicago, IL 60601 


  Report Number: A-05-08-00098

  Dear Mr. Cox:

  Attached please find Ohio' s official response to your daft report, "Review of Ohio
  Department of Job and Family Services Claims for Cost Reported by the Hamilton
  County Department of Job and Family Services", issued September 28, 2010. Our agency
  also appreciates the extended response time afforded given the significance of the issues.

  As the draft report focuses on Hamilton County, we have provided a copy ofthe draft
  report and our response to them. In addition, the Ohio Auditor of State requested, and we
  provided, a copy of the draft report with our response in support of its performance of the
  OMB Circular A-133 Single Audit of Hamilton County.

  If you or your staff have any addition questions regarding our response please feel free to
  contact Michael Colbert, Chief Fiscal Officer at 614-466-9195 or to e-mail him at
  Michael.Colbert@JFS.ohio.gov.



  S"D:t ~t'
  Douglas Lumpkin, Director 

  Ohio Department of Job and Family Services 


  Cc: Joseph T. Deters, Hamilton County Prosecuting Attorney
      Mora Weir, Director, Hamilton County Department of Job and Family Services
      Robert R. Hinkle, Chief Deputy Auditor, Ohio Auditor of State
      Michael Colbert, Chief Fiscal Officer, ODIFS
      Lewis George, Chief Legal Counsel, ODJFS
      Michael Barton, Audit Manager, OIG/OAS
      Al Hammond, Section Chief, Fiscal and Monitoring Services, ODIFS

                                         30 East Broad Street
                                        Columbus, Ohio 43215
                                             jls.ohio.gov

                    An Equal Opportunity Employer and Service Provider
                                                                                            Page 2 of2




OIG Summary of Findings and Recommendations:


Summary of Findings:
The Administrationfor Children and Families (ACF) portion ofthe $203 million in
unallowable costs identified in the State agency's report for services provided by the
child welfare organizations during our audit period totaled $58,987, 755 (Federal share).
The County agency inappropriately allocated the child welfare organizations ' costs
through the indirect cost pools. The State agency inappropriately claimed the costs
because it relied on the County agencies reported program costs and did not ensure the
County agency allocated the costs in accordance with the cost allocation plan and other
Federal requirements.




OIG Recommendations:
     (a) 	Refund $58, 987,755 to the Federal Government for County agency costs
          inappropriately claimed through the cost polls.

ODJFS Response:
         While the state of Ohio concurs with the summary of findings regarding the
         methodology of the cost pool finding, it reserves the right to negotiate the
         actual amount due to the Federal government through the resolution process
         with ACF and other parties as needed.



OIG Recommendations:
     (b) 	Ensure that the County agency appropriately allocates and reports allowable
          costs in accordance with the cost allocation plan and other Federal
          requirements.

ODJFS Response:
         We substantively concur with the recommendation in regards to ODJFS'
         oversight of the County agency. We would note that the cited reference, 45
         CFR 92.40 (a), requires that as a pass-through entity we must assure
         compliance by our subrecipients with applicable federal requirements.
         Accordingly, we will continue to develop and implement monitoring and
         internal control procedures to provide reasonable assurance of compliance by
         our sub- recipients as specified by OMB circular A-133, Section._400(d)(3).
